                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A07030012
                                                                               11          Page 1 of 1



         We received an allegation of potential research misconduct. Accordingly we referred the inquiry
         to the university,' and then received and assessed the report of the inquiry committee. The
         inquiry report found no evidence to support the allegations of research misconduct made against
         the subject: a post-doctoral research associate, by the complainant,3 a PI on an NSF award.' he
         report stated that research records were fragmentary, missing, or inconclusive, and the testimony
         of those involved was sometimes contradictory. The report considered a claimed inability to
         reproduce the research results of the subject. That result was used in a paper submitted for
         publication, but declined. The committee notes that specific experimental protocol was not
         repeated, the researcher completing the repetition was inexperienced, and that only one
         preliminary attempt was made to repeat the results. The committee concluded that there was no
         support within this claim for an allegation of research misconduct. Similarly, the committee
         found no evidence to support other claims by the complainant of research misconduct by the
         subject. The inquiry report notes a number of contradictory statements and misstatements made
         by the complainant, as well as the complainant's failure to follow University procedures in
         making an allegation of research misconduct. The inquiry committee recommended that the case
         be closed, and the Vice Chancellor for Research at the University closed the case. We accept the
         recommendation of the inquiry committee and the action of the University that the case be
         closed.

          Accordingly, this case is closed.




          1
              Redacted.
          2
              Redacted.
              Redacted.
              Redacted.



NSF OIG Form 2 (1 1/02)
